The Department of Justice (DOJ) Office of the Inspector General (OIG) today released a report
assessing programs implemented by the Federal Bureau of Investigation (FBI) and National
Security Division (NSD) to identify, investigate, and prosecute terrorist financing. The OIG audit
found that the FBI and the NSD have mechanisms to ensure terrorist financing-related
information is shared and coordinated with each other and with other relevant law enforcement
organizations and intelligence agencies. However, we found that the FBI could improve some
case management practices associated with investigating terrorist financing, and that the
Terrorist Financing Coordinators in field offices did not always perform their duties as intended
by the FBI.

Specifically, the OIG determined that, of the six basic financial-related investigative techniques
recommended by the FBI’s Terrorist Financing Operations Center (TFOS) for use in appropriate
counterterrorism investigations, the FBI documented the use of or provided a valid reason for
not using one technique in 100 percent of the case files we reviewed, and it documented the
use or valid reasons for not using the other techniques in most, but not all of the other
cases. The OIG believes that fully documented case files better enable succeeding Special
Agents and FBI managers to determine whether a given counterterrorism investigation included
an appropriate financial focus.

Our audit also revealed that Special Agents did not always adhere to the FBI directive to focus
on the financial aspects of counterterrorism investigations by creating a specific sub-file for all
such cases. In addition, we found that Terrorist Financing Coordinators located in FBI field
offices did not routinely review counterterrorism cases to ensure the implementation of the
financial focus directive for counterterrorism investigations, and they performed unrelated
collateral duties, and were not always selected in accordance with TFOS guidance.

The OIG made eight recommendations to assist the FBI in appropriately identifying and
investigating terrorism-related financing activities. The FBI agreed with all eight
recommendations.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/a1317.pdf.
